No. _______

IN THE

Supreme Court of the United States
MIGUEL LUNA PEREZ,
Applicant,
V.

STURGIS PUBLIC SCHOOLS; STURGIS PUBLIC SCHOOLS BOARD OF EDUCATION,
Respondents.
APPLICATION DIRECTED TO THE HONORABLE BRETT M. KAVANAUGH
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE
I, Roman Martinez, a member of the Bar of this Court and counsel of record for
Applicant, hereby certify that on October 8, 2021, I caused copies of this Application
Directed To The Honorable Brett M. Kavanaugh For An Extension Of Time Within
Which To File A Petition For A Writ Of Certiorari To The United States Court Of
Appeals For The Sixth Circuit in the above-captioned case to be mailed, first-class
postage prepaid, to:
Kenneth Bennett Chapie
Giarmarco, Mullins & Horton
101 W. Big Beaver Road, Tenth Floor
Troy, MI 48084
(248) 457-7020
kchapie@gmhlaw.com
Counsel for Respondents

Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Application Directed To The Honorable Brett M. Kavanaugh For An
Extension Of Time Within Which To File A Petition For A Writ Of Certiorari To The
United States Court Of Appeals For The Sixth Circuit was transmitted to the abovelisted counsel at the referenced email address.
I further certify that all parties required to be served have been served.

By __________________________
Roman Martinez
Counsel for Applicant

2

